                         Department of the Interior
                        Office of Inspector General




           AUDIT REPORT



          U.S. Fish and Wildlife Service
           Federal Assistance Grants
       Awarded to the State of Minnesota,
        Department of Natural Resources,
            Division of Fish and Wildlife,
      From July 1, 2002, Through June 30, 2004




Report No. R-GR-FWS-0018-2005    February 2007
                   United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                            12030 Sunrise Valley Drive, Suite 230
                                   Reston, Virginia 20191
                                                                                February 1, 2007

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit Report on the U.S. Fish and Wildlife Service Federal Assistance Grants
           Awarded to the State of Minnesota, Department of Natural Resources,
           Division of Fish and Wildlife, From July 1, 2002, Through June 30, 2004
           (No. R-GR-FWS-0018-2005)

        This audit report presents the results of our audit of costs incurred by the State of
Minnesota (State), Department of Natural Resources (Department), Division of Fish and Wildlife
(Division). The Division incurred the costs under Federal Assistance grants awarded by the U.S.
Fish and Wildlife Service (FWS). The audit included total reported outlays of approximately
$60.1 million on FWS grants that were open during the State fiscal years (SFYs) ended June 30
of 2003 and 2004 (see Appendix 1). The audit also evaluated Department compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of State hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We identified $505,600 of unreported program income and numerous
barter transactions that were not reflected in the financial status reports. We also identified
problems in the areas of direct costs, indirect costs, and assent legislation.

     We provided a draft of the report to FWS and the Department for response. This report
summarizes Department and FWS Region 3 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
May 2, 2007. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
Larry Kopas at 703-487-5358, or me at 703-487-5345.

cc:   Regional Director, FWS Region 3, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts), 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife programs. The Acts provide for FWS to reimburse the states up to 75 percent
of the eligible costs incurred under the grants. They also specify that state hunting and fishing
license revenues cannot be used for any purpose other than the administration of state fish and
wildlife agencies.

Objectives
The objectives of our audit were to determine whether the Department:

      •    claimed the costs incurred under Federal Assistance grants in accordance with the Acts
           and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
The audit work included total reported outlays of approximately $60.1 million on 34 FWS grants
that were open during SFYs 2003 and 2004 (see Appendix 1). We performed our audit at the
Department headquarters in St. Paul, Minnesota, and visited one regional office, seven area
offices, two fish hatcheries, three water access sites, one fish management area, and one wildlife
management area (see Appendix 2). We performed this audit to supplement, not replace, the
audits required by the Single Audit Act of 1984, as amended, and the by Office of Management
and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Accordingly, we tested records and conducted other
auditing procedures as we considered necessary under the circumstances. Our tests and
procedures included:




1
    As amended 16 U.S.C. §§ 669 and 777, respectively.


                                                         2
   •   examining the evidence that supports selected expenditures charged to the grants by the
       Division;

   •   interviewing Division employees to ensure that personnel costs charged to the grants
       were supportable;

   •   reviewing transactions and supporting documentation related to purchases, other direct
       costs, drawdowns for reimbursements, in-kind contributions, and program income;

   •   conducting site visits to review equipment and other property; and

   •   determining whether the Department used fishing license revenues solely for sport fish
       and wildlife program purposes.

To the extent possible, we relied on the work of the Office of Legislative Auditor, which
performed the SFYs 2003 and 2004 single audits, to avoid duplication of audit effort.

We also identified internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not project the results of tests to the total population of recorded
transactions nor did we evaluate the economy, efficiency, or effectiveness of the Department
operations.

Prior Audit Coverage
On November 12, 2002, we issued Advisory Report No. 2003-E-0004 “Costs Claimed by the
State of Minnesota, Department of Natural Resources, under Federal Aid Grants from the U.S.
Fish and Wildlife Service from July 1, 1997 through June 30, 1999”. We followed up on all
recommendations and determined they were resolved and implemented.

In addition, the Office of Legislative Auditor issued single audit reports for SFYs 2003 and
2004. The Sport Fish Restoration and Wildlife Restoration Programs were not selected for
compliance testing in either 2003 or 2004. As such, the single audits did not contain any
findings that would directly impact the Department’s FWS Federal Assistance grants.




                                                  3
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with grant agreement provisions and
requirements of the Acts and regulations. However, we identified the findings listed below. We
discuss the findings in more detail in the Findings and Recommendations Section.

       Unreported Program Income. The Department had at least $505,600 in unreported
       program income from activities on lands managed with Federal Assistance funds as well
       as from barter transactions.

       Incorrect Direct Costs Charged. Certain direct costs charged to Federal Assistance
       grants in SFY2004 were based on cost information that was both outdated and included
       duplicate, misclassified, and unsupported costs.

       Noncompliance With Assent Legislation. Minnesota’s assent legislation includes a
       provision that allows for the potential diversion of license revenues to non-fish and
       wildlife activities.

       Compliance With the 3 Percent Limitation Not Ensured. The Department had not
       adopted procedures to ensure the Department limits allocations for State central services
       to 3 percent of the State’s annual Federal Assistance apportionments.

Findings and Recommendations

A.     Unreported Program Income

       The Department did not report all program income generated on lands within the wildlife
       management areas (WMAs) that were managed and maintained with Federal Assistance
       funds under grants W-65-D-3, W-65-D-4, and W-65-D-5.

       Program income is gross income received by a grantee directly generated by a grant-
       supported activity; it includes income from services performed and the sale of
       commodities (43 C.F.R. § 12.65). Part 12.65(g) requires program income to be deducted
       from total grant costs to determine the net costs on which the federal share is based. With
       FWS approval, program income may be added to the project funds to further implement
       eligible program projects or be used to meet the cost sharing or matching requirement.

       The Department identified $505,600 as unreported income from various activities on
       WMA lands, including timber sales, crop leases, and the sale of sand and gravel permits.
       The Division program consultant, who is responsible for reporting program income, told
       us that FWS Region 3 officials instructed him to exclude income from activities on lands
       not acquired with Federal Assistance funds. FWS Director’s Order No. 168, however,



                                                4
defines program income as income generated on lands both purchased and managed with
Federal Assistance funds.

In October 2005, we notified FWS and Department officials of this issue. The Division
subsequently (1) adopted procedures to report program income from relevant WMAs and
(2) submitted revised financial status reports (SF-269s) properly identifying the $505,600
as undisbursed program income for the three grants. The Department’s Federal
Assistance Coordinator told us the Department plans to seek FWS approval to apply the
program income against expenditures in excess of the grant awards.

We also found the Department did not report program income from barter transactions.
The Division issues about 420 contracts annually in which farmers, in exchange for use
of tillable acreage on the WMAs and in lieu of lease payments, agree to leave a portion of
their crop in the field for the benefit of wildlife. The Division’s program consultant told
us he was unaware barter arrangements should be treated as program income. He also
stated he did not know how to value and report the income on the SF-269s.

We believe the value of crops received in lieu of lease payments should be reported as
program income. The value of the lease payments that the Department did not receive
because of the barter arrangement should also be included in the reported outlays on the
SF-269. In the future, these types of barter arrangements should be identified in the grant
application, and the appropriate accounting and reporting should be identified in the grant
agreement.

Recommendations

We recommend that FWS:

1. ensure grant expenditures over the grant award amounts are sufficient to offset the
   unreported program income;

2. coordinate with the Department to establish procedures for (a) identifying the barter
   farming arrangements, including anticipated program income, in the grant application
   and (b) reporting the value of the crops received as program income on the SF- 269;
   and

3. resolve the issue of the unreported program income from the barter farming
   arrangements that occurred during the audit period.

Department Response

Department officials stated that they concurred with recommendation 1. They identified
excess costs sufficient to offset the $505,600 in unreported program income and amended
the SF-269s for grants W-65-D-3, W-65-D-4, and W-65-D-5 to show the adjustment.




                                         5
     The Department does not concur with recommendations 2 and 3 concerning the
     identification, reporting and resolution of income from its barter farming arrangements.
     Department officials stated the federal regulations (Title 43 § 12.65(b)) do not
     specifically mention barter farming arrangements as program income, and that state
     accounting practices do not require reporting of barter arrangements. They further stated
     that the Department proposes to remove from the grant agreement all activities associated
     with cooperative farming and bartering agreements and seek FWS approval to exempt
     their barter income from federal reporting requirements.

     FWS Response

     The FWS Region 3 did not comment on Finding A’s recommendations.

     OIG Comments

     In response to the Department’s disagreement with recommendations 2 and 3, we note
     that under FWS Director’s Order 168, Exhibit 1, program income includes income
     generated during the grant period from the harvest of assets—such as timber or hay—that
     contribute to grant objectives on lands purchased or managed with Federal Assistance
     funds. The Division agreed to allow farmers to use tillable acreage on WMAs in
     exchange for leaving crops, which are assets, for wildlife. In addition, we note that the
     regulations cited in the finding require grantees to account for program income, although
     the FWS may approve various methods of doing so.

     The FWS did not comment on the three recommendations. We therefore consider the
     recommendations unresolved. FWS should provide a response to the recommendations
     indicating concurrence or non-concurrence. If the FWS concurs, officials should provide
     a plan that identifies the actions taken or planned to implement the recommendations,
     targeted completion date(s), the title of official(s) responsible for implementation, and
     verification that FWS officials reviewed and approved of actions taken or planned by the
     State. If FWS does not concur, officials should provide the reasons for the non-
     concurrence.

B.   Incorrect Direct Rates Charged

     In SFY2004, the Division developed a direct cost rate that the Department used for fringe
     benefit and administrative costs. The rate did not comply with applicable regulations
     because it was based on cost information which was both outdated and included
     duplicate, misclassified, and unsupported costs.

     Title 2 C.F.R. § 225, Appendix B.8, provides that compensation for personnel services is
     allowable if costs are reasonable and supported by adequate documentation. In addition,
     Title 43 C.F.R. § 12.63(a) provides that where a funding period is specified, a grantee
     may charge to the award only costs obligated during the funding period.




                                             6
The Division based its direct cost rate for SFY2004 on SFY2002 Division salaries,
including fringe benefit and administrative costs for that year. The Division should have
calculated the rate using SFY2004 cost data. Additionally, the SFY2002 fringe benefit
costs used in the direct rate calculation included unallowable costs consisting of
duplicate, misclassified, and unsupported costs. Eliminating the unallowable costs would
reduce the fringe benefit cost rate from 23.85 percent to 20.01 percent and would reduce
the costs incurred under the grants by $664,621.

We were unable to assign the $664,621 of costs to specific grants or calculate the total
questioned costs because of the numerous adjustments necessary to calculate the revised
direct rate charges. In addition, the amount of actual SFY2004 fringe benefit costs and
administrative costs would need to be compared with the SFY2002 costs used by the
Division to determine if additional adjustments were needed.

We believe that the Division did not properly calculate the direct rate because the
calculations were not reviewed at an adequate supervisory level. Rather, a single
individual prepares and applies the direct rate calculation each year without subsequent
review. In addition, there is no process in place to compare the reasonableness of the
direct rate calculations to the actual time spent by Division staff working on the Federal
Assistance grants.

Recommendations

We recommend that FWS require the Department to:

1. determine the proper amount of fringe benefit costs and administrative costs,
   recalculate the direct rates applicable to Federal Assistance grant labor costs for SFYs
   2003 and 2004, and resolve any overcharges to Federal Assistance grants;

2. use only current year fringe benefit costs and administrative costs in future direct rate
   calculations, including SFYs 2005 and 2006, to avoid the need for subsequent
   adjustments; and

3. establish procedures to assure adequate review and approval of the Division’s direct
   rate calculations that are applied to future Federal Assistance grants.

Department Response

The Department concurred with the three recommendations. To address the
recommendations, Department officials indicated they:

1. recalculated the rates used during FYs 2003 and 2004 and applied those rates to the
   relevant grants;




                                         7
     2. documented a new procedure for FY2006 and beyond to calculate and apply the
        direct rate on a current pay period basis;

     3. included the new procedure in a December 2005 update to its Federal Assistance
        Fiscal Policies Manual; and

     4. requested that the Department’s Office of Management and Budget Services review
        and approval the new direct rates.

     The Department determined that the overcharges found during FYs 2003 and 2004 were
     offset by excess eligible grant expenditures, and is requesting that FWS review and
     approve the use of the excess costs to address the overcharges.

     FWS Response

     The FWS Region 3 concurred with the recommendations, and will address the findings in
     the Corrective Action Plan.

     OIG Comments

     FWS management concurs with the recommendations and the Department indicated it
     has taken action to address the recommendations, but additional information is needed in
     the corrective action plan verifying that FWS reviewed and approved the actions
     completed or planned by the Department. The plan should also include the actions taken
     or planned, targeted completion dates, and titles of officials responsible for
     implementation.

C.   Noncompliance With Assent Legislation

     Minnesota’s assent legislation includes a provision that allows for the potential diversion
     of hunting and fishing license revenues to non-fish and wildlife activities. Although the
     Minnesota State Game and Fish Code (Code) Chapters 97A and 97B specify purposes for
     which the game and fish fund can be used, the Code does not specifically prohibit the use
     of funds for purposes other than the administration of the fish and wildlife agency.

     Title 50 C.F.R. §§ 80.3 and 80.4 require that before any monies are apportioned to a state,
     the state must assent to the provisions of the Acts. The state must pass laws that prohibit
     the use of license fees paid by sport fishermen for any purpose other than the
     administration of the state fish and wildlife agency.

     In November 2002, we reported that a provision in the State’s Code could result in the
     diversion of license revenues. Chapter 97A.065(b) ‘Dedication of certain receipts’ stated
     that “The Commissioner must reimburse a county, from the game and fish fund, for the
     cost of keeping prisoners prosecuted for violations of the game and fish laws…..” To
     correct this deficiency, the legislation was revised to state that the commissioner may,
     rather than must, reimburse a county from the game and fish fund.



                                              8
     Although the Division has not used the game and fish fund since 1993 to reimburse
     counties for keeping prisoners prosecuted for game and fish violations, potential exists
     for such use of game and fish funds. Such use of game and fish funds would be a
     diversion of license revenues and would result in the State becoming ineligible to
     participate in the Federal Assistance program.

     Recommendation

     We recommend that FWS require the Department to propose legislation to eliminate the
     Code’s provision allowing the commissioner to use the game and fish fund to reimburse
     counties for the cost of keeping prisoners prosecuted for violating game and fish laws.

     Department Response

     The Department concurred with the recommendation, and petitioned the Minnesota
     Legislature to remove the Code’s provision that creates the potential for a diversion of
     license revenue. The Department submitted documentation indicating that the Minnesota
     Legislature amended the relevant statute to strike the provision.

     FWS Response

     The FWS Region 3 concurred with the recommendation, and will address the findings in
     the Corrective Action Plan.

     OIG Comments

     FWS management concurs with the recommendation and the Department indicated it has
     taken action to address the recommendation, but additional information is needed in the
     corrective action plan verifying that FWS reviewed and approved the actions completed
     by the Department.

D.   Compliance With 3 Percent Limitation Not Ensured

     States allocate administrative costs for state-provided central services as an indirect cost
     across multiple grants and programs. Both the Sport Fish Restoration and the Wildlife
     Restoration Acts limit indirect costs that states can allocate for state central services to
     Federal Assistance grants. The Department’s SFYs 2003 and 2004 indirect cost rate
     proposals did not include an analysis to determine whether the costs of State central
     services outside the Department exceeded the limitation.

     The Acts’ limitation on indirect costs has been codified in 50 C.F.R. § 80.15(e), which
     requires administrative costs in the form of indirect costs for state central services to
     follow an approved cost allocation plan and not to exceed 3 percent of the annual Federal
     Assistance apportionment in any year. Additionally, Title 2 C.F.R. § 225, Appendix E,
     requires government entities to prepare an indirect cost rate proposal using actual cost
     data from prior years. Section C.4 (b) requires states to request a special rate when



                                               9
Federal statutes restrict the reimbursement of certain indirect costs. The analysis to
determine whether a state will exceed the 3 percent limitation should be performed before
they negotiate the indirect cost rate.

Each year, the Department submits an indirect cost proposal to the U.S. Department of
Interior’s National Business Center (NBC) for each division in the Department. The
Department applies the negotiated indirect cost rates to the Division’s federal grants,
subject to statute. The Department’s accountant, who prepared the indirect cost
proposals, told us she was aware of the required limitation on central services but she
relied on NBC to ensure compliance with the limitation. She also told us NBC did not
begin requesting verification of the 3 percent limitation from the Department until
January 2004, for its SFY2005 indirect cost proposal submission.

NBC incorrectly based its analysis of the 3 percent limitation for SFYs 2003 and 2004 on
the Division’s annual data on revenue rather than expenditures. NBC’s Indirect Cost
Coordinator told us they used revenue data because the Department’s financial statements
did not identify expenditures at the Division level. Cost data at the Division level is
necessary to ensure Division compliance with the 3 percent limitation.

The Division’s accountant later performed an analysis of the central services costs
included in the indirect cost rates approved for SFYs 2003 and 2004. Although the
analysis determined the Department did not recover more than the 3 percent limit, the
Division came within $21,000 of the limit during SFY2004 because the amount of costs
allocated to the Division was almost double that of the prior year.

Recommendation

We recommend that FWS require the Department to:

1. establish policies and procedures requiring that before an indirect cost rate is
   negotiated, an analysis be performed of central services costs included in the indirect
   cost rate proposal to ensure compliance with the 3 percent limitation; and

2. apply for and receive a restricted rate if analysis shows the 3 percent limitation will
   be exceeded.

Department Response

The Department concurred with both recommendations, and plans to rewrite its policy
and procedure manual for calculating the federal indirect cost rate. The revised manual
will include the procedure for completing the 3 percent limitation analysis and a
requirement to apply for a restricted rate if the 3 percent limitation is exceeded.




                                         10
FWS Response

The FWS Region 3 concurred with the recommendation, and will address the findings in
the Corrective Action Plan.

OIG Comments

FWS management concurred with the recommendations and the Department indicated it
has taken steps to address the recommendations, but additional information is needed in
the corrective action plan verifying that FWS reviewed and approved the actions
completed or planned by the Department. The plan should also include the actions taken
or planned, the targeted completion dates, and titles of officials responsible for
implementation.




                                       11
                                                   Appendix 1

    MINNESOTA DEPARTMENT OF NATURAL RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2002 THROUGH JUNE 30, 2004

Grant Number     Grant Amount      Total Outlays
F-2-L-60             $965,000         $286,124
F-2-L-61            1,499,000                 -
F-26-R-34           1,386,321          879,793
F-26-R-35           1,488,850        1,191,391
F-26-R-36           1,329,895        1,005,029
F-29-R(P)-22        7,984,200        6,102,710
F-29-R(P)-23        7,865,900        8,112,365
F-29-R(P)-24        8,079,400        1,910,291
F-32-D(S)-17        5,581,200        5,440,752
F-32-D(S)-18        4,785,660        5,202,821
F-37-E-12             240,000          172,352
F-37-E-13             276,749          569,293
F-37-E-14             451,569          297,464
FW-4-D-68             800,000          737,738
FW-11-C-14            251,053            20,193
FW-11-C-15            308,115          139,362
FW-13-T(SI)-12        965,000          447,355
FW-13-T(SI)-13      1,450,000        1,664,518
FW-13-T(SI)-14      1,127,000        1,166,805
W-27-L-116          1,016,310          337,593
W-65-D-3            7,333,000        2,343,867
W-65-D-4            4,505,000        6,734,882
W-65-D-5            4,622,000        2,969,977
W-66-M-3            1,258,000        1,130,048
W-66-M-4            1,080,000          305,753
W-66-M-5            1,800,000          314,389
W-67-T-5            1,845,161        1,911,775
W-67-T-6            1,693,701        1,668,405
W-68-D-5            1,608,000        2,672,696
W-68-D-6            1,653,960        2,955,620
W-69-S-5              383,600          488,811
W-69-S-6              394,600          387,255
W-70-E-1              461,463          252,468
W-70-E-2              388,313          266,711
                  $76,878,020      $60,086,606



                       12
                                                       Appendix 2


MINNESOTA DEPARTMENT OF NATURAL RESOURCES
               SITES VISITED

                    Headquarters
    Division of Fisheries and Wildlife, St. Paul, MN

                 Wildlife Section
         Grand Rapids Regional Headquarters
                Cloquet Area Office
             Detroit Lakes Area Office
              Fergus Falls Area Office
               Glenwood Area Office
             Grand Rapids Area Office
              Park Rapids Area Office

             Wildlife Management Area
             Bowstring Deer Yard WMA

                  Fisheries Section
              Detroit Lakes Area Office
                 Duluth Area Office
              Fergus Falls Area Office
               Glenwood Area Office
              Grand Rapids Area Office
              Park Rapids Area Office

                   Fish Hatcheries
           French River Coldwater Hatchery
               Otter Tail Lake Hatchery

               Fish Management Area
                   Jewel Lake FMA

                  Water Access Sites
                  Marion Lake WAS
                  Pelican Lake WAS
                  Pleasant Lake WAS




                          13
                                                                                Appendix 3

                 MINNESOTA DEPARTMENT OF NATURAL RESOURCES
                STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


  Recommendations                 Status                        Action Required

A.1, A.2, A.3           Unresolved.                 FWS should provide a response to the
                                                    recommendations indicating concurrence
                                                    or non-concurrence. If the FWS
                                                    concurs, provide a plan that identifies the
                                                    actions taken or planned to implement
                                                    the recommendations, targeted
                                                    completion date(s), the title of official(s)
                                                    responsible for implementation, and
                                                    verification that FWS officials reviewed
                                                    and approved of actions taken or planned
                                                    by the State. If FWS does not concur,
                                                    provide the reasons for the non-
                                                    concurrence. We will refer
                                                    recommendations not resolved and/or
                                                    implemented at the end of 90 days (after
                                                    May 2, 2007) to the Assistant Secretary
                                                    for Policy, Management and Budget for
                                                    resolution and/or tracking of
                                                    implementation.

B.1, B.2, B.3, C, D.1   FWS concurred with the      Provide a corrective action plan that
and D.2                 recommendations, but        identifies the actions taken or planned to
                        additional information is   resolve and implement the
                        needed.                     recommendations. The plan should also
                                                    include the targeted completion date and
                                                    the titles of official(s) responsible for
                                                    implementation of each
                                                    recommendation. We will refer any
                                                    recommendations that are not
                                                    implemented at the end of 90 days (after
                                                    May 2, 2007) to the Assistant Secretary
                                                    for Policy, Management and Budget for
                                                    resolution and/or tracking of
                                                    implementation.




                                            14
